No. 20-6672
IN THE SUPREME COURT OF THE UNITED STATES
ADAM COLEMAN,
fc

Petitioner;
v.

EPHRAIM MCDOWELL REGIONAL MEDICAL CENTER,

Respondent.

On Petition for a Writ of Certiorari to the Supreme Court
Of Kentucky

CERTIFICATE OF SERVICE

In accordance with Rule 29.5(c), the undersigned party for the Petitioner, Adam
Coleman, does hereby certify that service of the Petitioners Reply Brief Against Opposition
for a Writ of Certiorari in the above captioned matter was made upon Ephraim McDowell
Regional Medical Center and its counsel on record by First-Class postage paid to be
delivered by U.S. Mail within (1-3) business days. The same has been sent to the U.S.
Supreme Court, Priority Mail Express on this given day of
February, 2021.

Ronald L. Green
Counsel of Record / Respondent

United States Supreme Court
1 First St NE, Washington, DC 20543

Green Chesnut & Hughes PLLC
201 East Main Street, Suite 800
Lexington, KY 40507

ADAM COLEMAN

Phone: (859)-475-1471

Pro Se, Petitioner
402 West Broadway Apt #1
Danville, KY 40422
Phone: (859)-691-1560

ADM

